OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/MOZAMBIQUE’S
MANAGEMENT OF P.L. 480
NON-EMERGENCY
MONETIZATION PROGRAM
AUDIT REPORT NO. 4-656-07-003-P
DECEMBER 22, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General


December 22, 2006

MEMORANDUM

TO:                  USAID/Mozambique, Mission Director, Jay L. Knott

FROM:                Acting Regional Inspector General/Pretoria, James C. Charlifue /s/

SUBJECT:             Audit of USAID/Mozambique’s Management of P.L. 480 Non-Emergency
                     Monetization Program (Report No. 4-656-07-003-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments in their entirety, as Appendix II.

The report includes two recommendations to strengthen USAID/Mozambique’s
management of its Public Law (P.L.) 480 non-emergency monetization program. In
response to the draft report the Mission agreed with both recommendations. The
Mission provided a corrective action plan and target completion date for
Recommendation No. 1. Therefore, a management decision has been reached for this
recommendation. Please provide the Office of Audit, Performance, and Compliance
Division with the necessary documentation to achieve final action on Recommendation
No. 1. In the case of Recommendation No. 2, the Mission supported reinforcing the
requirement and procedures for documenting site visits and included a target date for
completing this action. However, the Mission indicated that for the portion of
Recommendation No. 2 dealing with data verification, that it would (1) determine the
necessity and frequency of such verification and (2) review and possibly update Mission
Order 4-5 if deemed necessary. Because data verification is an important component of
Recommendation No. 2, no management decision has been reached. Please provide
my office written notice, within 30 days of the date of this memorandum, on additional
information on actions planned or taken to implement Recommendation No. 2.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
                                                           DRAFT



CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Data Quality Assessment Not Performed ................................................................... 6

     Mission Officials Need to Better
     Document Site Visits ................................................................................................... 7

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13

Appendix III – Reported Outputs Achieved as of September 30, 2005 .................... 16
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria performed this audit as part of a series of
worldwide audits conducted by the Office of Inspector General. The objective of this
audit was to determine whether USAID/Mozambique’s Public Law (P.L.) 480 non-
emergency monetization activities were achieving selected planned outputs. (See page
3.)

We were unable to determine whether USAID/Mozambique’s P.L. 480 Title II non-
emergency monetization activities were achieving their selected planned outputs
because we could not verify the outputs reportedly achieved. However, during fiscal
year (FY) 2005, the Mission’s six cooperating sponsors had reported that they had
surpassed planned outputs over 90 percent of the time. The reported outputs could not
be validated because the Mission had not performed a data quality assessment and the
limited data testing performed during the audit identified some problems with reported
FY 2005 data. Nevertheless, the audit found that the Mission’s monetization activities
have been successful in many areas, including cooperating sponsors introducing
farming techniques to assist farmers produce better yielding crops as well as planting
disease-resistant crops that have high nutritional value. In addition, the monetization
activities have impacted local communities in part by training volunteers who then teach
communities to use locally available foods to prepare nutrient-rich diets for their children.
(See pages 4-6.)

This report includes two recommendations for strengthening USAID/Mozambique’s
management of the monetization program. The Mission has agreed with both
recommendations in its written response to the draft report. A management decision
has been reached for Recommendation No. 1. For Recommendation No. 2, because
there has been no agreement on the need to conduct data verification during site visits,
no management decision has been reached. (See pages 7, 9, and 10.)

Management comments are included in their entirety in Appendix II.




                                                                                           1
BACKGROUND
The United States Government continues to be a major provider of food assistance to
developing countries around the world. Through Title II of the Agricultural Trade
Development Assistance Act of 1954, commonly know as Public Law (P.L.) 480,
USAID’s Office of Food for Peace (FFP) provides commodities to reduce food insecurity
in vulnerable populations. As a result, P.L. 480 Title II commodities represent the largest
amount of U.S. Government resources committed to combating global food insecurity,
providing over $6.5 billion of assistance since 2000.

P.L. 480 Title II provides agricultural commodities for both emergency and non-
emergency development assistance. USAID’s P.L. 480 non-emergency monetization
activities involve the selling of agricultural commodities to obtain foreign currency for use
in U.S. assistance programs. Usually, USAID missions use some of these monetized
funds to finance the operational costs of the direct distribution of food aid to targeted
individuals or populations who are vulnerable to hunger and malnutrition. USAID
missions may also use monetized funds to finance other development projects. In fiscal
year (FY) 2005, FFP programmed 2.7 million metric tons of food assistance worldwide
valued at $1.7 billion.

Within Mozambique, USAID provided an estimated total of 30,000 metric tons of wheat
valued at approximately $8.1 million for non-emergency monetization activities in FY
2005,1 which was the period covered by this audit. Of this, $6.5 million in monetization
proceeds were distributed to six private voluntary organizations (hereafter referred to as
cooperating sponsors). The activities were implemented in six of Mozambique’s poorest
provinces located in the northern part of the country. Within the target area, most of the
population suffers regularly from food shortages and “hungry periods.” According to a
Mission document titled Mozambique: A Food for Peace Success Story, “chronic
malnutrition is widespread, with a third to more than half of young children in the target
communities identified as ‘stunted’ or shorter than they should be for their age.”

In implementing its P.L. 480 non-emergency monetization activities, USAID/Mozambique
uses cooperating sponsors to carry out its activities. These organizations include
Adventist Development and Relief Agency, Africare, CARE, Food for the Hungry
International, Save the Children Federation, and World Vision. USAID/Mozambique has
programmed its monetization activities in five-year Development Activity Programs
(DAP), with the current DAP being carried out during FY 2002 to 2006. To accomplish
in-country monetization activities, a consortium of the cooperating sponsors, led by the
Executive Committee (EXCOM) monetization office (which is part of World Vision),
periodically requests wheat commodities through USAID/Mozambique. The Mission
approves requests for the commodities, which include an estimated sales price based
upon the expected market price of wheat at the time the commodity is expected to be
shipped from the United States. A tendering process is used by EXCOM to identify
wheat buyers, among several millers located in Mozambique. Proceeds are used to pay

1
  The Mission supplements its monetization program activities with Development Assistance
funds. In addition, P.L. 480 Title II section 202(e) funds are used to help eligible organizations
meet costs related to administration, management, personnel, and internal transportation.
Further, cooperating sponsors’ contributions are also used.


                                                                                                2
for monetization activities that support the Mission’s “Rapid Rural Income Growth
Sustained in Target Areas,” strategic objective (SO) 6. SO6’s performance goal is
enhanced food security and agricultural development. The Mission’s monetization
activities are structured to address this performance goal.

AUDIT OBJECTIVE
This audit, which was included in the OIG’s fiscal year 2006 annual audit plan, was
conducted as part of a worldwide series of audits of USAID’s management of its P.L.
480 Title II non-emergency monetization program. The audit was designed to answer
the following question:

   •   Are USAID/Mozambique’s P.L. 480 non-emergency monetization activities
       achieving selected planned outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                 3
AUDIT FINDINGS
We were unable to determine whether USAID/Mozambique’s P.L. 480 Title II non-
emergency monetization activities were achieving their selected planned outputs
because we could not verify the outputs reportedly achieved. However, during fiscal
year (FY) 2005 the Mission’s six cooperating sponsors had reported on a total of 92
outputs. Collectively they reported surpassing over 90 percent of their targeted planned
outputs.2 (Appendix III summarizes these reported outputs.) The reported outputs could
not be validated because the Mission had not performed a data quality assessment, and
limited data testing performed during the audit identified some problems tracing the
reported FY 2005 output data to source documents. Nevertheless, the audit team
observed many monetization activities being carried out and, in speaking with the people
benefiting from these activities, it was evident that monetization has successfully helped
Mozambicans to improve their lives—crop yields and household incomes have
increased, diets have improved, and the annual period of food insecurity has shortened.

Monetization relies on the sale of Title II wheat in the Mozambique market3. For FY
2005 the cooperating sponsors received over $6.5 million from the proceeds of the sale
of wheat to achieve their intended outputs. The outputs are aligned with the strategy of
focusing on sustainable development to help Mozambicans become increasingly less
vulnerable to food insecurity.

One of the mechanisms used by the monetization program for achieving sustainable
development is for cooperating sponsors to use their own agricultural extension agents
to introduce good farming techniques to farmers’ groups to (1) produce better yields, and
(2) plant crops that are disease resistant and have high nutritional value. One technique
the audit team observed was the planting of cassava in rows. This allowed farmers to
receive increased yields per each hectare of land. Another technique involved a
pineapple farmers’ group using chemicals to stimulate flowering, thus allowing for out-of-
season pineapple production. According to the farmers, off-season pineapples sold for
the equivalent of $1 each, as opposed to 20 cents during the regular season. This group
was also able to participate effectively in a marketing association—another aspect of the
extension agent’s efforts. The chief of the farmers group said that with the extra income
from producing out-of-season pineapples he was able to purchase a cell phone. Thus,
he was now contacting buyers to find out who would offer the highest prices and make
purchase deals. With this information, the group was harvesting just in time for the
buyers to pick up the fruit, which avoided storing and minimized spoilage. Some
communities have also started producing types of vegetables that they had not grown
previously. These vegetables were being eaten by the families growing them and where
surpluses existed they were being sold.




2
  Appendix I in part, addresses how a weighted average of the planned outputs achieved for FY
2005 was used.
3
  According to officials from the Executive Committee (EXCOM) monetization office, Mozambique
produces virtually no wheat and bread is a staple food for the urban poor. The sale of wheat
delivers high-quality wheat at local market prices, which is not available regionally, and therefore
does not have an adverse impact upon local production or marketing in each country.


                                                                                                  4
Another aspect of the Mission’s monetization program is nutrition education. Nutrition
coordinators provide training to volunteers who are selected from mothers with young
children in the community to train others in the community. For example, volunteers
train their communities to use locally available foods to prepare nutrient-rich diets for
their children. The volunteers are also trained to promote to the communities the
importance of exclusive breastfeeding, and the benefits of colostrum (mothers’ first milk)
to newborns which provides immunity from disease. In one province visited where this
training is being provided, the previous traditional belief was that colostrum was dirty and
was not given to infants.

Notwithstanding      these   accomplishments,     there    are    several     areas    for
USAID/Mozambique to strengthen its management of monetization activities. These
include the completing of a quality assessment of monetization data and better
documenting site visits. Subsequent sections of this report will more fully address these
areas. In addition, except in a few instances, USAID branding was not present where
monetization activities were being carried out. USAID guidance does not require the
cooperating sponsor to permanently mark a monetization-funded project. Thus, neither
the U.S. Government nor the American people are receiving credit for the provision of
the monetization resources. According to the Mission, it has been advised that Food for
Peace/Washington’s Agreement officer will soon request Branding Strategies and
Marking Plans from Cooperating Sponsors. Once the documents have been approved
by USAID/Washington, the Mission will monitor implementation of the Strategy and
Plans through site visits. USAID’s Office of General Counsel has also explained that
the P.L. 480 Title II Federal regulations and USAID guidance requirements are under
revision, and when finalized will require permanent markings. Since these revisions are
not finalized, we are not making a recommendation in this report.




Photo of a farmer’s association member operating a treadle water pump to irrigate vegetable plots. This
technology was introduced through USAID/Mozambique’s monetization program. (Photograph taken in
Muziva, Mozambique in October 2006 by RIG/Pretoria auditor.)


                                                                                                     5
Photo of a pineapple growers association member showing a pineapple grown by the association. These
farmers grow pineapple off-season through techniques introduced by USAID/Mozambique’s monetization
program. (Photograph taken in Nantuto, Mozambique in October 2006 by RIG/Pretoria auditor)


Data Quality Assessment Not Performed
Summary: A data quality assessment (DQA) has not been performed for the Mission’s
monetization program performance indicators as required by USAID’s Automated
Directives System (ADS) 203. The Mission’s strategic objective 6 (SO6) team had
assumed a USAID/Mozambique contractor that assists in survey data collection had
completed a data quality assessment. Without a DQA, USAID/Mozambique does not
have reasonable assurance that data quality meets validity, timeliness, and reliability
standards, the lack of which could negatively affect decision making.

USAID’s ADS 203 states that operating units shall, at regular intervals, critically assess
the data they are using to monitor performance to ensure they are of reasonable quality
and accurately reflect the process or phenomenon they are being used to measure.
Data quality will be assessed as part of the process of establishing performance
indicators and choosing data collection sources and methods. The guidance goes on to
say that reassessments will be done as necessary, but at intervals of no greater than
three years; and that whenever possible, reasonable standards of statistical reliability
and validity should be applied. DQAs provide management with reasonable assurance
that data quality is sufficient for sound management decisions.



                                                                                                 6
In August 2006, the Mission’s SO6 team initiated action to conduct its first DQA of its
monetization program. At the time of this audit, cooperating sponsors had been queried
on their data collection procedures and data controls. SO6 stated that it still needed to
work with the Mission’s Program Office to identify an appropriate course of action for
performing the DQA. As required under the Development Activity Program (DAP), the
six cooperating sponsors presented to the Mission their FY 2005 Results Reports which
were then forwarded to USAID/Washington. The results reports included planned and
actual output data. One of the outputs was “Months of Food Security” which was
reported in the Mission’s annual report. It established a target of 11 months of food
security for FY 2005, with 10.9 months of food security achieved for the fiscal year.
Within the last three years, no DQA had been completed for any of the reported data.

The DAP requires extensive reporting on outputs every two years. The measurement of
the status of the majority of these outputs is obtained from surveys. A contractor assists
with the surveys and once the surveys have been completed, they analyze any
methodology limitations. The Mission SO6 team had assumed that analysis was a DQA.
As a result, a DQA was not performed.

A results-oriented management approach relies on USAID/Washington and field
managers use of performance information to make decisions. Quality performance
indicators and data help (1) ensure that USAID program and budget decisions are as
well-informed as practically possible, (2) support efficient use of USAID resources, and
(3) address the information needs of USAID’s internal and external users, including
senior management, Office of Management and Budget (OMB), and the Congress.
However, sound decisions require valid, current, and reliable information. The benefits
of this results-oriented approach depend substantially on the quality of the performance
information available. Without DQAs, USAID/Mozambique does not have reasonable
assurance that its data meet quality, validity, timeliness, and reliability standards—the
lack of which could negatively affect decision making.

To ensure that future data quality meets the required standards, we are making the
following recommendation:

   Recommendation No. 1: We recommend that USAID/Mozambique perform a
   data quality assessment for its Public Law 480 non-emergency monetization
   program.

Mission Officials Need to Better
Document Site Visits
Summary: USAID/Mozambique’s staff needs to strengthen its documentation of site
visits to the Mission’s cooperating sponsors. USAID guidance addresses the Mission’s
responsibility for documenting significant actions with recipients. Nevertheless, many
Mission officials responsible for overseeing the monitoring of non-emergency
monetization activities have not been documenting their efforts. This occurred because
the strategic objective 6 (SO6) team leader had not required staff to document site visits.
Without documentation of what has occurred during site visits, it is difficult to determine
whether the visits have accomplished the level of monitoring required to oversee the
implementation of the Mission’s monetization activities.



                                                                                         7
According to USAID’s ADS 303.2(f), the CTO is responsible for monitoring and
evaluating a recipient and its performance during the award to facilitate the achievement
of program objectives. Required CTO action includes contact through site visits and
liaison with the recipient, and reviewing and analyzing performance and financial reports.
In addition, ADS 202.3.6 specifies that “monitoring the quality and timeliness of outputs
produced by implementing partners is a major task of CTOs and SO teams...problems in
output quality, provide an early warning that results may not be achieved as
planned…early action in response to problems is essential in managing for results.”

Similarly, according to ADS 202.3.4.6, strategic objectives teams “must ensure that they
have adequate official documentation on agreements used to implement USAID-funded
activities, resources expended, issues identified, and corrective actions taken.” In
addition, USAID/Mozambique has developed mission-specific policies and procedures
concerning the submission of project trip reports covering temporary duty (TDY) by
USAID staff. These procedures are documented in Mission Order No. 4-5 dated June
22, 1994. Section IV of the Mission Order states that “It is USAID policy that trip reports
will be prepared…for all TDY travel regardless of the location except that a report will not
be required for TDYs for orientation or training…Reports are to be kept brief so as not to
create an undue burden on the staff.” The Mission Order states that the discussion
“should indicate the degree to which the purpose of the visit was achieved, problems
identified and significant action proposed or taken and any findings of interest.” Finally,
the Mission’s Performance Monitoring Plan for SO6 states that it will integrate data
quality assessment procedures into ongoing activities e.g., “combine a random check of
partner data with a regularly scheduled site visit.”

A review of cooperating sponsor reports and interviews disclosed that
USAID/Mozambique staff had regularly performed site visits as part of monitoring, yet
few site visit reports were maintained in the Mission’s files for FYs 2005 and 2006 that
documented these efforts.4 In cases where site visit reports were written, there was no
indication that data reported on monetization activities to USAID by the cooperating
sponsors were being checked against source documents during these visits. In addition,
for the limited items tested, it was difficult to trace some of the output data that
constituted FY 05 reported data to source documents because source documents could
not be found to substantiate some of the numbers reported. Although our data testing
was limited, it illustrated the need for Mission staff to combine verification of cooperating
sponsor data with site visits. The validation of data is an important and required
component of monitoring.

Site visit reports were not being written regularly because the SO team leader
responsible for the monetization activities did not require staff to prepare site visit
reports. The team leader was aware that the staff was conducting monitoring via site
visits and had even read a few site visit reports, but did not require that site visit reports
be prepared to document monitoring.

Because many site visits had not been documented with trip reports, it was difficult for
the Mission to account for its site visit results. Without trip reports, it was difficult to
determine whether the site visit activity was appropriate to accomplish the monitoring
necessary to oversee the implementation of monetization activities. The documentation

4
 In addition to site visits, monitoring was also conducted in many different forms—face-to-face
meetings, email, telephone communications, and status reports.


                                                                                             8
and maintenance of site visit records are an important internal control for ensuring that
all of the Mission’s cooperating sponsors are adequately monitored and that funds are
accounted for. Moreover, documentation of site visits in the Mission’s files helps to
provide information that serves as part of the basis for evaluating the effectiveness of a
cooperating sponsor’s programs. Such documentation is also important for historical
purposes, since it memorializes significant events, observations, and decisions. This
can be especially important when staff turnover results in new staff being assigned
monitoring responsibility for ongoing activities.

In order to strengthen this management control and to provide the Mission with the full
benefit of the site visits, we are making the following recommendation:

   Recommendation No. 2: We recommend that USAID/Mozambique communicate
   to mission staff the importance of, requirement for and the mechanism for
   properly documenting field site visits, including the sample verification of data
   reported by the recipients of USAID funds.




                                                                                        9
EVALUATION OF
MANAGEMENT COMMENTS
In responding to our draft report, USAID/Mozambique management concurred with
Recommendation Nos. 1 and 2. For Recommendation No. 1, the Mission indicated that
it will perform a data quality assessment (DQA) of common indicators reported by
cooperating sponsors of the non-emergency monetization program. The Mission will
perform the DQA in March 2007 and will finalize the Mission’s performance monitoring
plan in July 2007. We consider that a management decision has been reached for
Recommendation No. 1.

In the case of recommendation No. 2, the Mission agreed to reinforce the importance of
and requirements and procedures for documenting site visits. The Mission will post
Mission Order 4-5, dated June 22, 1994, concerning trip reports on its internal website
and will email it to all Strategic Team Leaders and Office Chiefs. The target date for
achieving this activity is January 2007. However, the Mission did not concur with the
need to perform data verification during normal site visits. Their position is based the
ADS and Mission Order 4-5 not containing such requirements. Instead, the Mission
indicated that it would (1) determine the necessity and frequency of such verification, (2)
review and possibly update Mission Order 4-5 if deemed necessary. ADS 202.3.6
specifies that “monitoring the quality and timeliness of outputs produced by
implementing partners is a major task of CTOs and SO teams...problems in output
quality, provide an early warning that results may not be achieved as planned…early
action in response to problems is essential in managing for results.” The validation of
output data is an important monitoring activity. We believe the monitoring the quality of
reported outputs can be easily achieved if Mission staff periodically verifies reported
output data on a sample basis during site visits—this is particularly important since the
Mission has no other mechanism to verify data. As stated previously in this report, the
Mission’s Performance Monitoring Plan for SO6 provides that it will integrate data quality
assessment procedures into ongoing activities e.g., “combine a random check of partner
data with a regularly scheduled site visit.” Since there has been no agreement on the
need to conduct data verification during site visits, which is an important component of
Recommendation No. 2, no management decision has been reached.

Recommendation No. 3 included in our draft report, for which USAID/Mozambique
management provided comments, has been deleted from this final audit report.

The Mission’s comments are included in their entirety in Appendix II.




                                                                                        10
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. Fieldwork was conducted from
September 26, 2006, to October 18, 2006, in the provinces of Nampula and Zambezia
as well as Maputo, Mozambique.

This audit was conducted as part of a series of audits conducted by the Office of
Inspector General. It was designed to determine whether USAID/Mozambique’s P.L.
480 Title II non-emergency monetization activities achieved selected planned outputs.

In conducting this audit, we assessed the effectiveness of internal control related to the
monetization activities. We identified pertinent controls such as (1) the Mission’s
documentation pertinent to managing the program, (2) the cooperating sponsors’
procedures regarding management of funds and reporting of data, and (3) the Mission’s
annual self-assessment of internal control in accordance with the Federal Managers
Financial Integrity Act for fiscal years (FY) 2005 and 2006.

The audit scope encompassed USAID/Mozambique’s monetization activities and their
selected planned outputs as of September 30, 2005. Year-end data for FY 2006 was
not included in the scope of this audit because it was not yet available during the audit’s
fieldwork. In addition, only three of the six cooperating sponsors were required to report
FY 2005 data quarterly. The planned outputs were selected from the universe of
programs financed through the Mission’s monetization activities. In fiscal year 2005,
$6.5 million in monetization proceeds were distributed to the six cooperating sponsors,
of which the audit’s testing included all reported outputs. The Mission’s monetization
program has a more extensive and complete reporting of outputs for even-numbered
years. Thus, the outputs reported on for FY 2005 were less than the full universe of
outputs.

Methodology

To answer the audit objective, we performed reviews of the six cooperating sponsor
development activity program proposals, and their FY 2005 results reports. We
interviewed staff at USAID/Mozambique and three of six cooperating sponsors—World
Vision, Save the Children and CARE—to determine the roles and responsibilities for
managing various aspects of the monetization process in Mozambique. We reviewed
pertinent documents which included but were not limited to site visit reports, quarterly
reports, annual reports, and the Mission’s performance monitoring plan which helped to
determine the levels of monitoring being carried out and also to determine if progress
towards outputs had been achieved. We also reviewed the relevant U.S. laws governing
the P.L. 480 Title II Program, as well as applicable USAID policies and procedures. We
conducted site visits of monetization activities implemented by World Vision and Save
the Children. During the site visits we interviewed cooperating sponsors’ provincial staff,
reviewed data collection procedures, and met with the beneficiaries of the monetization
activities.



                                                                                        11
                                                                           APPENDIX I


To gain an understanding of the process for funding requests by the cooperating
sponsors, the process for receiving Title II commodities, the sale of the commodities,
and the distribution of the proceeds, we interviewed Executive Committee (EXCOM)
monetization office officials (which is part of World Vision) and reviewed documents
including monthly EXCOM meeting minutes, call forwards of bulk wheat, commodity
survey reports, damaged- or misuse-of-commodity reports, and the delivery of the
commodity to the buyers.

The reported outputs could not be validated because the Mission had not performed a
data quality assessment, and limited data testing performed during the audit identified
some problems tracing the reported FY 2005 output data to source documents. Thus,
we could not determine whether USAID/Mozambique’s P.L. 480 Title II non-emergency
monetization activities were achieving their selected planned outputs. However the audit
team analyzed all outputs reported by the six cooperating sponsors for FY 2005 and
noted the number of planned outputs reported as being achieved. We then used the
funding amount received by each cooperating sponsor in FY 2005, to arrive at the
weighted average of the planned outputs achieved for FY 2005. This weighted average
was measured against the following audit materiality threshold criteria:

   1) If at least 90 percent of the selected planned outputs had been achieved, the
      answer to the audit objective would be positive.

   2) If at least 80 percent but less than 90 percent of the selected planned outputs
      had been achieved, the answer to the audit objective would be qualified.

   3) If less than 80 percent of the selected planned outputs had been achieved, the
      answer to the audit objective would be negative.




                                                                                     12
                                                                              APPENDIX II



MANAGEMENT COMMENTS


                                                                        December 15, 2006

MEMORANDUM

TO:            Nathan Lokos, Regional Inspector General /Pretoria

FROM:          Jay L. Knott, Mission Director USAID/Mozambique /s/

SUBJECT:       Audit of Mozambique’s Management of P.L. 480 Non-Emergency
               Monetization Program (Report No. 4-656-07-XXX-P)

Ref:           RIG/Memorandum dated November 15, 2006

We refer to the above Memorandum that contains three recommendations for which
USAID/Mozambique has been requested to provide comments and feedback:

Recommendation No. 1: We recommend that USAID/Mozambique perform a data
quality assessment for its Public Law 480 non-emergency monetization program.

Mission’s comments: The Mission recognizes that completion of data quality
assessments (DQAs) of the P.L. 480 non-emergency monetization program indicators
will allow it to substantiate data on outputs and results.

The Mission will therefore perform DQAs on the common indicators reported by the
cooperating sponsors of the non-emergency monetization program. The Mission
recognizes that completion of data quality assessments for the P.L. 480 non-emergency
monetization program indicators will provide us with a reasonable assurance that the data
meet validity, timeliness, precision, integrity and reliability standards. By completing the
data quality assessments, USAID will then be able to conclude that during fiscal year
(FY) 2005 the Mission’s six cooperative sponsors surpassed planned outputs over 90
percent of the time.

Target Dates: Perform DQAs on common P.L. 480 indicators - March 2007;
Finalization of Mission Performance Monitoring Plan - July 2007.

Recommendation No. 2: We recommend that USAID/Mozambique communicate to its
Mission staff the importance of, requirement for and the mechanism for properly



                                                                                         13
                                                                              APPENDIX II


documenting field site visits, including the sample verification of data reported by the
recipients of USAID funds.

Mission Comments: The Mission concurs with the recommendation to reinforce the
importance of and requirements and procedures for documenting site visits. Therefore,
the Mission will post Mission Order 4-5, dated June 22, 1994 concerning Standard Trip
Reports on its internal website and will email it directly to all SO Team Leaders and
Office Chiefs.

On data verification, we have not located in the ADS a requirement to conduct such
verification during normal site visits. Our Mission Order governing site visits contains no
such provision. The Mission will determine the necessity and frequency of date
verification. The Mission will review and may update Mission Order 4-5 if deemed
necessary.

Target Dates: Post Mission Order 4-5 on Standard Trip Reports on the Mission’s
intranet and send to SO Team Leaders and Office Chiefs - January 2007.

Recommendation No. 3: We recommend that USAID/Mozambique develop and
implement a written plan, including milestones, to ensure that all aspects of its Public
Law non-emergency monetization program incorporate USAID branding.

Mission Comments: Recommendation No. 3 does not reflect Agency guidance on
branding for assistance instruments, as set forth in the Final Rule concerning
Administration of Assistance Awards to U.S. Non-governmental Organizations, Marking
Requirements, which went into effect on January 2, 2006. As a result, the Mission
proposes that this Recommendation be reconsidered by RIG.

According to the Mission’s understanding of current Agency regulations, it is incumbent
upon the Agreement Officer to request that all assistance applicants or recipients of
assistance awards receiving FY2006 funding submit a Branding Strategy describing how
the program will be named, promoted and communicated to beneficiaries and cooperating
country citizens and how donors will be acknowledged. The Branding Strategy is to be
reviewed for adequacy, negotiated and included in the award by the Agreement Officer.
The Agreement Officer is also to request a Marking Plan detailing the type and level of
marking for activities, commodities, public communications and other deliverable items
that will visibly bear the USAID identity. The Marking Plan would also then be
reviewed for adequacy, negotiated and included in the award by the Agreement Officer.
The approved Marking Plan for each activity is the tool to be used to monitor compliance
with marking requirements.

In the case of USAID/Mozambique’s P.L. 480 non-emergency monetization programs, to
date, none of the Cooperating Sponsors have been asked by the Agreement Officer in
Food for Peace/Washington to develop or submit either a Branding Strategy or a Marking
Plan.




                                                                                           14
                                                                             APPENDIX II


In addition, the Mission’s understanding is that this audit was to focus on FY 2005
program performance, which is before the branding requirements for assistance
instruments went into effect.

The Mission has been advised that Food for Peace/Washington’s Agreement Officer will
soon request Branding Strategies and Marking Plans from Cooperating Sponsors
receiving FY 2006 funding. Once such documents have been approved by the
Agreements Officer in USAID/Washington, the Mission’s Food for Peace Officer will
monitor implementation of the Strategy and Plans through regular field visits.

Target Date: September 2007.

Should you require any additional information, please feel free to contact us.




                                                                                      15
                                                                                      APPENDIX III


Reported Outputs Achieved as of September 30, 20055


    Output Category                                          Number of
                                                             Reported            Output Targets
                                                              Outputs              Achieved


    Sustainable increase in local crop
    production/agricultural output                                69                Over 90%

    Effective road transportation system                          3                 Over 90%

    Increased contractor capacity                                 3                 Over 90%

    Nutrition/Health                                              17                Over 90%

    Total                                                         92                    NA

The funding received and the monetization activities are disproportionate among the six
cooperating sponsors. As a result, a weighted average was used as a basis in
calculating the percentage of output targets achieved for each category. See Appendix
I, which in part provides a discussion of the weighted average methodology used.




5
    The Fiscal Year (FY) 2005 output data that is reported in Appendix III has not been fully audited.


                                                                                                   16
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
